CERTIFICATE OF SERVICE
I, Dennis P. Riordan, a member of the Bar of this Court, hereby certify
pursuant to Supreme Court Rule 29.5(b), that on June 17, 2019, one copy of the
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT
OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT in the above entitled case was mailed to each party identified
below or on that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid.
The name(s) and address(es) of those served are as follows:
E. Kate Patchen
Manish Kumar
Albert B. Sambat
Micah L. Rubbo
Alexis J. Loeb
Michael R. Rabkin
Assistant U.S. Attorneys
450 Golden Gate Avenue, 11th Floor
San Francisco, CA 94102

Noel J. Francisco
Acting Solicitor General of
the United States
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

Robert B. Nicholson
Finnuala K. Tessier
Adam D. Chandler
Jonathan H. Lasken
Trial Attorneys
U.S. Department of Justice
Antitrust Division
950 Pennsylvania Ave., NW
Rm. 3224
Washington, DC 20530-0001
DATED: June 17, 2019
Dennis P. Riordan
1611 Telegraph Ave., Ste. 806
Oakland, CA 94612
(415) 431-3475
Counsel of Record For Petitioners

